Terms & Conditions
The information provided below in these Terms & Conditions, along with the Cardholder
Agreement(s), certain account pricing and terms that were available to certain applicants
that applied for and were approved for certain credit card accounts on the last business
day of the calendar month that ended on March 31, 2020. These account terms may
not be available after that date.
These documents are being provided to you for informational purposes only. If you apply
and are approved for a credit card account with us, your actual account terms will be
based on the terms of the offer available at the time that you applied, what you are
approved for and your actual Cardholder Agreement will be the agreement sent to you
when your account is first opened.
Farm Bureau Member Rewards MasterCard
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

12.99% to 24.99% APR.
This APRwillvary withthe market based onthe Prime Rate.

APR for Balance Transfers

12.99% to 24.99% APR.
This APRwillvary withthe market based onthe Prime Rate.

APR for Cash Advances

25.24%APR.
This APRwillvary withthe market based onthe Prime Rate
Up to 27.24% based on your creditworthiness. This APR will vary with the
market based on the Prime Rate.

Penalty APR and When it Applies

This APR may be applied to your account if you make a late payment.
How Long Will the Penalty APR Apply? If your APRs are increased for this
reason, the Penalty APR may apply indefinitely.

Paying Interest

Your due date is at least 23 days after the close of each billing cycle. We
will not charge you interest on purchases if you pay your entire balance by
the due date each month. We will begin charging interest on balance
transfers, checks and cash advances on the transaction date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $2.00 ($0.50 for
residents of Iowa at the time of account opening).

Fees
Annual Fee

$0

Transaction Fees:

•

Balance Transfer

Either $10 or 4% of the amount of each transfer, whichever is greater. We
may from time to time offer you lower Transaction Fees on Balance
Transfers and Checks.

•

Cash Advance

Either $10 or 5% of the amount of each cash advance, whichever is greater.

•

Foreign Transaction

3% of each transaction in U.S. dollars.

Penalty Fees

•

Late Payment

Up to $35 (depending upon the state that you live in at the time of account
opening.)

•

Over-the-Credit-Line

$0

•

Returned Payment

Up to $35 (depending upon the state that you live in at the time of account
opening.)

Additional Check Related Fees

•

Check Stop Payment Fee

Up to $39.95 (depending upon the state that you live in at the time of
account opening.)

•

Returned Check Fee

Up to $35 (depending upon the state that you live in at the time of account
opening.)

How We Will Calculate Your Balance: We use a method called "daily balance (including new purchases)". If you are a resident
of Iowa at the time the account is opened, we use a method called "average daily balance (including new purchases)". See
Cardholder Agreement for more information.
Loss of Introductory APR: We may end your introductory APR and apply the Penalty APR if you make a late payment.
Military Lending Act: Covered borrowers under Military Lending Act; Federal law provides important protections to members
of the Armed Forces and their dependents relating to extensions of credit. In general, the cost of consumer credit to a member
of the Armed Forces and his or her dependent may not exceed an annual percentage rate of 36 percent. This rate must
include, as applicable to the credit transaction or account: The costs associated with credit insurance premiums; fees for
ancillary products sold in connection with the credit transaction; any application fee charged (other than certain application
fees for specified credit transactions or accounts); and any participation fee charged (other than certain participation fees for a
credit card account). Please call our toll-free number 800.492.3276 from Monday-Friday, 7am-7pm CT and Saturdays, 8am12pm CT if you would prefer an oral disclosure of the payment obligation for this account before using the account or
activating the card.
Fees that Vary By State
Late Payment Fee: Up to $35 (Up to $15 for residents of Iowa at the time of account opening).
Returned Payment Fee: Up to $35 (Up to $15 for residents of Iowa at time of account opening).
Returned Check Fee: Up to $35 (Up to $20 for residents of Iowa at time of account opening).
Check Stop Payment Fee: Up to $39.95 (Up to $29 for residents of Iowa at time of account opening).
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in the cardholder
agreement.
As of 3/31/2020 the Prime Rate was 3.25%.

